Case: 19-40811

Document: 00515687867

Page: 1

Date Filed: 12/29/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-40811
United States of America,
Plaintiff—Appellee,
versus
Rolando Villarreal,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 7:16-CV-299
ORDER:
Rolando Villarreal, federal prisoner # 98152-279, pleaded guilty of
possessing a firearm after a felony conviction and was sentenced to 165
months and 26 days of imprisonment after the district court determined that
he was subject to the enhanced sentencing range of the Armed Career
Criminal Act (ACCA). The district court dismissed as untimely Villarreal’s
28 U.S.C. § 2255 motion, in which he challenged the application of the
ACCA in light of Johnson v. United States, 576 U.S. 591 (2015). Villarreal
now seeks a certificate of appealability (COA) to challenge this ruling.
To obtain a COA, Villarreal must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,

21

Appendix A

Case: 19-40811

Document: 00515687867

Page: 2

Date Filed: 12/29/2020

529 U.S. 473, 483-84 (2000) (28 U.S.C. § 2253 application). When a district
court rejects a claim on procedural grounds, such as limitations, we will issue
a COA only if the movant “shows, at least, that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether
the district court was correct in its procedural ruling.” Slack, 529 U.S. at
484.
Villarreal has not made the requisite showing that reasonable jurists
could debate whether his petition states a valid claim of the denial of a
constitutional right. Accordingly, his motion for a COA is DENIED.

STUART KYLE DUNCAN
United States Circuit Judge

22

